                 DEPARTMENT OF HOMELAND SECURITY
                              Office of Inspector General – Office of Audits
                                        San Francisco Field Office
                                       1111 Broadway, Suite 1200
                                     Oakland, California 94607-4052

                                              November 24, 2003


MEMORANDUM

TO:               Jeff Griffin
                  Regional Director
                  FEMA, Region IX




FROM:             Robert J. Lastrico
                  Field Office Director

SUBJECT:    City of Palo Alto, California
            Public Assistance Identification Number 085-55282
            FEMA Disaster Number 1203-DR-CA
            Audit Report Number DS-02-04
___________________________________________________________________________

The Office of Inspector General (OIG) audited public assistance funds awarded to the City of
Palo Alto, California (City). The objective of the audit was to determine whether the City
expended and accounted for Federal Emergency Management Agency (FEMA) funds
according to federal regulations and FEMA guidelines.

The City received an award of $1.9 million from the California Office of Emergency
Services (OES), a FEMA grantee, for emergency and permanent repairs to City facilities
damaged as a result of flooding that occurred from February 2, 1998, through April 30, 1998.
The award provided for 75 percent FEMA funding for 10 large projects and 9 small projects.1
The audit covered the period February 2, 1998, to April 22, 2002, and included a review of
two large projects with a total award of $456,845.


1
 Federal regulations in effect at the time of the disaster defined a large project as one costing $47,100 or more
and a small project as one costing less than $47,100.


This report remains the property of the DHS Office of Inspector General (DHS-OIG) at all times and, as
such, is not to be publicly disclosed without the express permission of the DHS-OIG. Requests for copies
of this report should be immediately forwarded to the DHS Office of Counsel to the Inspector General to
ensure strict compliance with all applicable disclosure laws.
The OIG performed the audit under the authority of the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. The audit
included a review of FEMA, OES, and City records, and other auditing procedures
considered necessary under the circumstances.

The audit confirmed that the City expended and accounted for the FEMA funds it claimed
according to federal regulations and FEMA guidelines. The OIG informed City officials of
audit results on November 14, 2003, and OES and FEMA Region IX officials on
November 17, 2003. Since this report contains no recommendations, a response is not
required. Should you have any questions concerning this report, please contact me at
(510) 627-7011. Key contributors to this assignment were Humberto Melara and Venetia
Gatus.




                                             2
